Chief Justice
John G. Roberts Jr.
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice
/'■■■

NO.

Page | 1 of 13

3J> ~
Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES

MAR 1 5 2021
OFFICE OF THE CLERK

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Petitioner

Hakim Jakuin Morris,
V.

STATE of South Carolina, Berkeley County
Family COURT, Berkeley Child Support Enforcement,)
Dss, Marcine Holmes, Jocelyn B. Cate
,.....................Respondents.

Hakim Jakuin Morris,
8248 Thurgood Marshall Highway,
Andrews SC, 29510

IX4RECSVED
MAR 2 A 2021
«FFICE OF THE CLERK
SUPREME COURT, U.S.

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 2 of 13

QUESTION PRESENTED
Why was I denied Substantive & Procedural Due process to challenge the validity of the alleged claims
made by DMV, DSS and court officials? Why was property seized by public trusties without due process
of law? 5. Why did the Respondents color of law under enforce policy to deprive me of my civil Liberties
through wanton Negligence. 6. Why were my pleadings, discovery, evidence, and motion to a hearing
ignored without I Morris Hakim Jakuin the real party in interest being heard in a meaningful way? Why
did the courts refuse to follow guide lines of Strict Scrutiny, Executive Order 13892 and National Task
force for State courts?

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 3 of 13

TABLE OF CONTENTS

.2

QUESTION PRESENTED

.3-4

TABLE OF CONTENTS..
TABLE OF AUTHORITIES AND OTHER ESTABLISHED LAW
I. INTRODUCTION AND SUMMARY OF ARGUMENT....... 6

II. FURTHER ARGUMENTS FOR PETITION FOR WRIT OF CERTIORAI OR
OTHER EXTRAORDINARY RELIEF
7-8

A. Parties

8

B. Factual background.

8

C. Procedural background

8-9

The Petititoner(s) appeal raises substantial
Issues, Overlooked by 4th circuit & USCA,

9

F. The Court has jurisdiction, and this petition is
Timely.

10

4-6

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

11

G. Authenticity of exhibits

11

III. PRAYER FOR RELIEF

V. MEMORANDUM OF POINTS AND AUTHORITIES See Attachment a....

C. A corrective writ of Certiorari is necessary to
Clarify substantive Due process rights and Jurisdiction of the judgment,
TABLE OF CONTENTS (Continued)

E. In the alternative, the Court should exercise its
Discretion to issue the writ to prevent
10

Irreparable harm to the Petitioner and the public..

3. Respondents’ interests would not be
11

harmed by writ of Certiorari...............

12

VI. CONCLUSION

TABLE OF AUTHORITIES AND OTHER ESTABLISHED LAW
6

Principle 4.3.........
Delaware v. Prouse

7

Page | 4 of 13

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 5 of 13

.7

SC CON ARTICLE 1 SECTION 22 JUDICIAL REVEIW

.7

Lutz, David D., Appellant, v. City of York, Pennsylvania, 899 F.2d 255 (3d Cir. 1990

Bykofsky v. Borough]

.7

.8

the Human Rights Act

8

Montgomery vs State

9

S.C. Code Ann. § 14-3-310

9

S.C. Code Ann. § 14-8-200

.9

SECTION 16-5-10. Conspiracy against civil rights
9

Colonial pipeline co. v.traigle...............................

SECTION 16-5-60. Suits against county fordamagesto person or property resulting from violation of
10
person's civil rights

10

Article 1 Section 23

Ex parte Young 209 U.S. 123 (1908)
10
12

United States v. Agurs, see also Miller v. Pate, Darden v. Wainwright
Cf. Mesaroshv. United States..............................................................

12

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 6 of 13

I. INTRODUCTION AND SUMMARY OF ARGUMENT
I Hakim Jakuin Morris, Petitioner, in full life respectfully move this Court for Writ of Certiorari/Judicial
review now files and PETITION FOR WRIT OF CERTIORARI OR OTHER EXTRAORDINARY
RELIEF asking for a Stay to enjoin and Stay Respondents STATE of South Carolina, Berkeley County
Family COURT, Berkeley Child Support Enforcement,) Dss, Marcine Holmes, Jocelyn B. Cate from any
further Proceedings during the pendency of this case. This Petition for Writ of Certiorari to Stay is based
on the following facts.

1. A. On 7-27-19,1 Morris, Hakim Jakuin was denied the privilege to drive without a 14th amendment
substantive due process financial Determination court hearing by the appropriate court. I was not given a
chance to assert my right to be heard in a meaningful way.

2. B. I am asserting my fundamental rights that were Neglected Berkeley County Family Court failed to
provide a hearing to determine my financial Status, Child Support Enforcement a Division of Department
of Social Services injured me without a proving that a lawful contract exist or a valid debt, Marcine
Holmes never put in a Affidavit and valid Complaint alleging I am contractually Obligated to her, and
Jocelyn B. Gate willfully violated my due process rights and the FDCP.

3. C. Family Court Child Support Division and Dss Through Breach of Public trust, ignoring my right to
Pleadings to exercise Principles of fairness in law see Principle 4.3. Driver’s License Suspension. Courts
should not initiate license suspension procedures for nonpayment of a Legal Financial Obligation until an
ability to pay hearing is held and a determination has been made on the record that nonpayment was
willful. Judges should have discretion in reporting nonpayment of Legal F inancial Obligations so that a
driver’s license suspension is not automatic upon a missed payment. Judges should have discretion to
modify the amount of fines and fees imposed based on an individual’s income and ability to pay.
Department of Social Services in collusion with the department of Motor vehicle removed my Driving
privileges which cost me wages and work. The Court officers in collusion with DMV restricting my
Movement willfully neglecting the multiple Constitutional and civil liberty Violations.

4. E. Take Notice: Child Support Officers), DMV and Family Court on 7 -27-19 restricted my movement
and neglected my right to Provide for myself under my chosen profession. There is not a fundamental

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 7 of 13

right to drive but there is a fundamental right of locomotion freedom of movement by intrastate. The
privilege to drive does not give State Agencies the Authority to neglect my right to a fair and impartial
hearing. Citing Delaware v. Prouse,' 8 the Court held that citizens were not shorn of their fourth
amendment right of liberty merely because they "stepp[ed] from the sidewalks into their automobiles."T 9
The Court also denied police officials the right to conduct random or arbitrary seizures for the purpose of
checking a motorist's identification].

II. FURTHER ARGUMENTS FOR PETITION FOR WRIT OF CERTIORARI
Petition for writ of Certiorari is a matter of necessity do to irreparable harm that will incur from removing
my CDL again do to the following facts as stated above I was not given proper Due process of Law which
caused Courts of ambush from past date 09/21/2016 until 10/09/2020 through an abuse of discretion upon
errors of law due to the unconstitutional Disregard for State/Federal guide lines. The order from the 4th
circuit was in error because the law is clearthatlhave protections by authority of the 14 th amendment
Substantive Due process Administrative hearing which I never received or was given notice by the courts
of a hearing before they removed my CDL several Times. 2. Appellant likelihood of success on appeal is
high due to multiple areas of procedural and Substantive Due process violation, Misconduct and issue of
law; pursuant to this Rule, the lower court, administrative tribunal, appellate court, or judge or justice of
the appellate court should consider whether such an order is necessary to preserve further damage to me
and the public by courts and federal agencies abuse of regulation using guidance documents to in force un
legislated rules.

certiorari is a court process to seek judicial review of a decision of a lower court or government agency.
Certiorari comes from the name of an English prerogative writ, issued by a superior court to direct that
the record of the lower court be sent to the superior court for review.).

SECTION 22. Procedure before administrative agencies; judicial review.
No person shall be finally bound by a judicial or quasi-judicial decision of an administrative agency
affecting private rights except on due notice and an opportunity to be heard; nor shall he be subject to the
same person for both prosecution and adjudication; nor shall he be deprived of liberty or property unless
by a mode of procedure prescribed by the General Assembly, and he shall have in all such instances the
rightto judicial review. (1970 (56)2684; 1971 (57)315.)

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M . Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 8 of 13

Federal question Jurisdiction can be evoked through cases and constitutional issues that are fundamental
in Nature I provided several in my complaint to the Federal district court for review. See Lutz, David D.,
Appellant, v. City of York, Pennsylvania, 899 F.2d255 (3d Cir. 1990) also see. Bykofsky v. Borough
which held that the right to travel Was indeed fundamental, and that the United States Supreme Court had
required that state laws limiting this right be evaluated under a standard of strict scrutiny.'

A. Parties
1. Hakim Jakuin Morris, Petitioner
2. STATE of South Carolina, Berkeley County
Family COURT, Berkeley Child Support Enforcement,)
Dss, Marcine Holmes, Jocelyn B. Cate, Respondents

B. Factual background: see, Writ for original Jurisdiction pages 2&3
Everyone must have equal access to the courts under the Human Rights Act. There is also the right to a
fair and public hearing. Citing: Montgomery vs State; The duty rest upon all courts, “State and federal, to
guard, protect, and enforce every right granted or secured by the Constitution whenever such rights are
involved in any proceeding before the court and the right is duly and properly claimed or asserted. The 4lh
Circuit discretion was made upon error even if my complaint was not in form or substance as they are use
to the spirit of the complaint along with the information was mor than enough for them to show sufficient
facts that expose multiple valid claims 4th circuit denied me Equal protection of the Law when they
abused their discretion. Form 09/21/16 until present the courts have neglected to follow positive law
ignoring clear and established principles of law and procedures even with notice of my financial
difficulties being highlighted to the collection agencies and courts.

C. Procedural background
1. Complaint Filed October 2nd 2019 and Complaint Entered October 3 2019
2. Motion forleaveto proceed in formapaupreis October 2nd 2019 Orderto proceed December 17th 2019
3. Order Filed December 17th 2019
4. Report & Recommendation Filed & Entered December 17th 2019 Terminated February 022020
5. Document mailed Filed & Entered on January 15th 2020

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 9 of 13

6. Objection to Report & Recommendation Filed & Entered February 4lh 2020
7. Order on Report & Recommendation Filed & Entered February 6th 2020 & judgment February 7th 2020
8. Document mailed Filed & Entered February 7'h 2020 Notice of Appeal Filed 04/21/2020 Entered
05/08/2020 Terminated 11/12/2020, Transmittal Sheet for Notice of Appeal to USCA May 8 th 2020
9. Assembled initial Electronic recorded transmitted to 4CCAFiled May 8th 2020 Terminated 11/12/2020
10. USCA Opinion Filed & Entered October 20th 2020
11 .USCA Mandate Filed & Entered November 12* 2020

My Petition raises substantial issues, overlooked by 4th Circuit & USCA

1. National task force for State courts principles, Strict Scrutiny and free exercise

2. Respondents has not filed sufficient evidence before any court in this State that Respondents’

counsel characterize as “affidavits,” but they are not sworn to nor are their statements made under
penalty of perjury alleging I refried to pay without the required financial determination.

3. The Respondents’ failure to present proper Procedures and statements, made under penalty of

perjury, warrant the court’s disregard of the proposed “affidavits” and granting of summary
judgment in favor of the defendant/Petitioner(s). Writ of Certiorari is a matter of right and Black
Letter Law when no factual evidence and Jurisdiction is not gained over the person due to the
failure of respondents to afford me proper due process as stated above no judgment should be
entered against me.

4. Take Notice: Colonial pipeline co. v. traigle (US Surpreme Court footnote8)there Kentucky

provided that an agent of an express company not incorporated under the laws of Kentucky could
not carry on business in that State without first obtaining a license from the State. The Court held
that this mandatory license requirement was unconstitutional because to "carry on interstate
commerce is not a franchise or a privilege granted by the State .... We have repeatedly decided
that a state law is unconstitutional and void which requires a party to take out a license for

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Aiito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 10 of 13

carrying on interstate commerce, no matter how specious the pretext may be for imposing it." Id.,
at 57-58. See GrahamMfg. Co. v. Rolland, 191 La. 757,186 So. 93 (1939); State v. American
Railway Express Co., [421 U.S. 100,112] 159La. 1001,106 So. 544(1924).

The Court has jurisdiction, and this petition is timely.
S.C. Code Ann. § 14-3-310 (Original jurisdiction of Supreme Court to issue writs); S.C. Code Ann. § 148-200 (Court of Appeals jurisdiction to issue writs)

a. SECTION 16-5-10. Conspiracy against civil rights.
It is unlawful for two or more persons to band or conspire together or go in disguise upon the public
highway or upon the premises of another with the intent to injure, oppress, or violate the person or
property of a citizen because of his political opinion orhis expression or exercise of the same or attempt
by any means, measures, or acts to hinder, prevent, or obstruct a citizen in the free exercise and
enjoyment of any right or privilege secured to him by the Constitution and laws of the United States or by
the Constitution and laws of this State..

b. SECTION 16-5-60. Suits against county for damages to person or property resulting from violation of
person's civil rights.

Any citizen who shall be hindered, prevented or obstructed in the exercise of the rights and privileges
secured to him by the Constitution and laws of the United States or by the Constitutio n and laws of this
State or shall be injured in his person or property because of his exercise of the same may claim and
prosecute the county in which the offense shall be committed for any damages he shall sustain thereby,
and the county shall be responsible for the payment of such damages as the court may award, which shall
be paid by the county treasurer of such county on a warrant drawn by the governing body thereof. Such
warrant shall be drawn by the governing body as soon as a certified copy of the judgment roll is delivered
to them for file in their office.
I have filed my petition in the time allowed on emergency notice.

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 11 of 13

G. Authenticity of exhibits

Most of the Exhibits are from Public Service providers, the courts and Affidavits.

III. PRAYER FOR RELIEF

1. The fraud was an affront to the administration ofjustice and the proper function of the judicial
system because the fraud was perpetrated on the court through the corruption of multiple officers,
Private attomey(s) and Judge(s).

Therefore, the Petitioner Pray that this court Grant the Writ of Certiorari/Judicial review, Appeal from the
South Carolina District Court 4th circuit and other relief requested for it would cause irreparable harm do
to further encroachments of substantive rights loss of future wages emotional and mental distress. Further
the Petitioner ask the court for leave to Amend petitions so they would be in proper form.

C. A corrective writ of Certiorari is necessary to clarify the abuse of discretion of the judgment, though
prohibitory in form, is mandatory in effect.

The rights and Duties of South Carolina Constitution Mandatory and Prohibitory S.C. Constitution Article
1 Section 23; writ of Certiorari is necessary to clarify the abuse of discretion an error of Common law and
Procedural Law; See, Ex parte Young 209 U.S. 123 (1908) the 11th amendment provides no shield for a
state official confronted by a claim that he had deprived another of a federal right under the color of state
law. Ex Parte Young teaches that when a state officer acts under a state law in a manner violate of the
federal constitution, he or She comes into conflict with the superior authority of the constitution, and he
or she is in that case stripped of his or her official or repetitive character and is subjected in his or her
person to the consequences of his or her individual conduct. The state has no power to impart to him or
her any immunity from responsibility to the supreme authority of the United States.

E. In the alternative, the Court should exercise its discretion to issue the writ to prevent irreparable harm
to the Appellant and the public.

John G. Roberts Jr., Chief Justice
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alito Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett M. Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice

Page | 12 of 13

c. The Court observed the "settled doctrine" that a party may obtain relief from a judgment where fraud
prevents a fact from being a part of the original litigation when the fact "clearly proves it to be against
conscience to execute a judgment.

d. "Where enforcement of the judgment is 'manifestly unconscionable,'" a court has the equitable power to
grant relief-even after the term has expired.

Usingfalse orfraudulent evidence involves a corruption United States v. Agurs, see also Miller v. Pate,
Darden v. Wainwright Improper Argument and Manipulation or misstatement of evidence violates due
process). Cf. Mesarosh v. United States.

3. Respondents’ interests would not be harmed by a stay.
Respondent has been notified of the Constructive Notice and continued legal action(s)

FURTHER, sayeth naught.

CONCLUSION
Therefore in conclusion I Hakim Jakuin Morris, Petitioner, was not afforded the right to be heard by the
courts which is a violation of Due process I now file this Petition, and makes all other motions and
objections in this case whether or not specifically noted at the time of making of the Petition or objection,
on the following grounds and authorities: The Due process clause, the right to a fair trial by an impartial
jury, the right to counsel, Equal protection, Confrontation and compulsory process, The right to remain
silent and Appeal, and the right to be free from cruel and unusual Punishment, pursuant to the federal and
State constitution Principles, and specifically, The right to Wirt Judicial Review, and Stay of Judgment
for lack of Proper procedure I will not waive any of my Rights. The best evidence of the common law is
to be found in the decisions of the courts ofjustice .... The reports ofjudicial decisions contain the most
certain evidence, and the most authoritative and precise application of the rules of the common law.
[Kent, J„ 1 COMMENTARIES, at 473-78.]

Respectfully submitted,

